OFFICE OF THE
SECRETARY
FY 2013 Compliance
with Improper
Payment Requirements

FINAL REPORT NO. OIG-14-016-I
APRIL 15, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    The Inspector General
                                                    Washington. D.C. 20230




April 15,2014

INFORMATION MEMORANDUM FOR SECRETARY PRITZKER
               /.'
                           I ~ll ·) ._____
FROM:                    Todd J. Zinser

SUBJECT:                 FY 2013 Compliance with Improper Payment
                         Requirements Final Report No. OIG-14-016-I

This memorandum provides our fina l repott on FY 2013 improper payment
reporting. We conducted this review to comply with the requirements of the
Improper Payments Information Act of 2002 (IPIA)-as amended by the Improper
Payments Elimination and Recovery Act of 20 l 0 (IPERA) and the Improper
Payments Elimination and Recovery Improvement Act of 2012 (IPERIA)-and
Office of Management and Budget (OMB) Circular A-1 23, Appendix C,
"Requirements for Effective Measurement and Remediation of Improper
Payments."

Our review focused on assessing whether the Department's improper payment
reporting in Appendix C of its FY 2013 Agency Financial Report complied with all
applicable reporting requirements. We also evaluated the accuracy and
completeness of the Department' s reporting, as well as its performance in reducing
and recapturing improper payments.

Overall, we found that the Department met the applicable OMB criteria for
compliance with IPIA for FY 20 13. However, we determined that the Department
could further enhance follow-up practices related to bureau reporting of qua1terly
improper payment data. Our report contains one recommendation to address this
condition. In accordance with Department Administrative Order 213-5, within 60
days of the date of this memorandum, we request an action plan that responds to
our recommendation.

We are also issuing a copy of this report to the Senate Committee on Homeland
Security and Governmental Affairs ; House Committee on Oversight and
Government Reform; Comptroller General of the United States; Director, OMB;
and Acting Controller, OMB.
We would like to thank the Department's staff and management for its cooperation
during our review. Please contact me at (202) 482-4661 if you would like to
discuss the results of this review.

Attachment




                                       2
                                                Report In Brief                             APRIL 15, 2014




Background                                      OFFICE OF THE SECRETARY
The Improper Payments Information
Act of 2002 (IPIA) requires federal agen-
                                                FY 2013 Compliance with Improper Payment
cies to (1) identify programs susceptible to    Requirements
improper payments; (2) estimate improper
payment amounts for such programs; and          OIG-14-016-I
(3) report these estimates, along with ac-
tions taken to reduce improper payments
for programs with estimates that exceed         WHAT WE FOUND
$10 million in improper payments. The Im-
proper Payments Elimination and Re-             To comply with IPIA and OMB Circular A-123, Appendix C, the
covery Act of 2010 and Improper Pay-            Department implemented procedures in FY 2013 to detect and prevent
ments Elimination and Recovery Im-              improper payments—conducting program risk assessments, reviewing a
provement Act of 2012 amended IPIA by           sample of FY 2013 disbursements, performing payment recapture audits,
expanding on the previous requirements and      and conducting routine monitoring procedures. These assessments
broadening recovery requirements for over-      revealed no programs or activities susceptible to significant risk of
payments.                                       improper payments.
Broadly defined, improper payments are          In addition, the Department’s review did not identify any significant
those the federal government has made in        improper payments among its approximately $13.7 billion in outlays.
the wrong amount, to the wrong entity, or       The Department’s routine monitoring efforts in FY 2013 identified
for the wrong reason. Federal agencies re-      almost $9.2 million in overpayments , of which more than $5 million was
ported that the improper payment rate was       confirmed by the Department as recaptured. Based on these activities,
3.53 percent for fiscal year (FY) 2013, a de-
                                                we found the Department met the applicable OMB criteria for
crease from the prior year’s rate of 4.35
                                                compliance with IPIA. The Department has also implemented
percent.
                                                corrective actions to address the finding identified in our March 2013
In FY 2013 the Department reported $57          report on improper payment practices and reporting. A summary of
thousand in improper payments from recap-       the Department’s relevant FY 2013 practices and results appear in the
ture audits and $9.2 million in overpayments    U.S. Department of Commerce FY 2013 Agency Financial Report.
which were identified through its ongoing
improper payment monitoring and minimiza-       While the Department met the applicable compliance requirements for FY
tion efforts.                                   2013, we determined that the Department could further improve its
                                                improper payment practices related to bureau reporting of quarterly
Why We Did This Review                          improper payment data. For FY 2013, we found that the Department did
We initiated this engagement to review          not follow up with the bureaus to determine whether their quarterly
the Department’s compliance with IPIA—          improper payment data included any amounts related to the unresolved
as required by the Office of Management         audits identified in prior years. As a result, we believe there is a risk that
and Budget's (OMB’s) government-wide            the Department should have reported additional improper payment
implementation guidance, Circular A-123,        amounts in FY 2013.
Management’s Responsibility for Internal Con-
trols, Appendix C, “Requirements for Ef-        WHAT WE RECOMMEND
fective Measurement and Remediation of
Improper Payments.” Specifically, we (1)        We recommend that the Deputy Chief Financial Officer and Director for
assessed whether the Department com-
                                                Financial Management enhance the Department’s processes to ensure
plied with all applicable reporting require-
                                                that bureaus specifically provide, in their quarterly improper payment
ments and (2) evaluated the accuracy and
                                                reporting, the status of unresolved audits identified in prior years and
completeness of its reporting as well as its
performance in reducing and recapturing         whether any improper payments were identified and recaptured upon
improper payments.                              final resolution.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL


Contents

Introduction .......................................................................................................................................................1

Objectives and Finding.....................................................................................................................................2

   Improper Payment Elimination Practices Are Compliant with IPIA, But Further 

   Improvement Is Needed .............................................................................................................................3

   Recommendation..........................................................................................................................................4

Summary of Agency Response and OIG Comments................................................................................5

Appendix A: Objectives, Scope, and Methodology...................................................................................6

Appendix B: Agency Response ......................................................................................................................7





                                                                                                                    COVER: Detail of fisheries pediment,
                                                                                                           U.S. Department of Commerce headquarters,

                                                                                                                   by sculptor James Earle Fraser, 1934





FINAL REPORT NO. OIG-14-016-I
U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


Introduction

As required by the Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Controls, Appendix C, “Requirements for Effective Measurement and
Remediation of Improper Payments”—government-wide guidance on detecting and preventing
improper payments—we initiated this review to determine whether the Department complied
with the Improper Payments Information Act of 2002 (IPIA), as amended by the Improper
Payments Elimination and Recovery Act of 2010 (IPERA) and the Improper Payments
Elimination and Recovery Improvement Act of 2012 (IPERIA).

Broadly defined, improper payments are those the federal government has made in the wrong
amount, to the wrong entity, or for the wrong reason.1 Federal agencies reported that the
improper payment rate was 3.53 percent for fiscal year (FY) 2013, a decrease from the prior
year’s rate of 4.35 percent.

Congress enacted IPIA to encourage agency management to plan and take actions to reduce
such payments. It requires federal agencies to (1) identify programs that were susceptible to
improper payments, (2) estimate improper payment amounts for such programs, and (3) report
these estimates along with actions taken to reduce improper payments for programs with
estimates that exceed $10 million. IPERA and IPERIA amended IPIA2 by expanding on these
previous requirements3 and broadening recovery requirements for overpayments.

During FY 2013, the Department made approximately $13.7 billion in total outlays. As
mandated by IPIA, the Department implemented various internal controls intended to detect
and prevent significant improper payments. As a result, in FY 2013 the Department identified
no programs and activities that may be susceptible to significant improper payments—and
reported $57 thousand in improper payments from recapture audits and $9.2 million in
overpayments which were identified through its ongoing improper payment monitoring and
minimization efforts. A summary of the Department’s FY 2013 improper payment practices and
results appear in appendix C of the U.S. Department of Commerce FY 2013 Agency Financial Report
(AFR).



1
  According to IPERA, Public Law 111-204, §2(e), an improper payment is any payment that should not have been
made or that was made in an incorrect amount (including overpayments and underpayments) under statutory,
contractual, administrative, and other legally applicable requirements. It includes any payment (1) to an ineligible
recipient, (2) for an ineligible good or service, (3) that is duplicate, (4) for a good or service not received, and (5)
that does not account for credit for applicable discounts.
2
  From this point, unless otherwise indicated, the term IPIA will denote IPIA, as amended by IPERA and IPERIA
throughout this report.
3
  Beginning in FY 2013, IPERA defines significant improper payments as exceeding (1) 1.5 percent of program outlays
and $10 million of all program or activity payments made during the fiscal year or (2) $100 million. OMB further
established additional requirements related to federal agency management accountability, recovery auditing,
compliance determination through inspector general assessment, and sufficient internal controls related to
improper payments. IPERIA adds additional reporting requirements, which agencies will implement based on OMB
guidance that will be provided in FY 2014.


FINAL REPORT NO. OIG-14-016-I                                                                                              1
U.S. DEPARTMENT OF COMMERCE                                                                          OFFICE OF INSPECTOR GENERAL


Objectives and Finding

Our review focused on the Department’s efforts to calculate, disclose, reduce, and—when
appropriate—recapture improper payments accurately, as required by OMB Circular A-123.
Specifically, our objectives were to (1) assess whether the Department complied with all
applicable reporting requirements and (2) evaluate the accuracy and completeness of its
reporting as well as its performance in reducing and recapturing improper payments.

OMB Circular A-1234 outlines seven requirements for compliance with IPIA. Four of the
requirements relate to programs and activities susceptible to significant improper payments.
The Department is responsible for determining whether its programs and activities are
susceptible to the risk of significant improper payments. In FY 2013, the Department did not
identify any such programs or activities during its risk assessment process. Therefore, only
three requirements are applicable to the Department in FY 2013. We found that the
Department met these applicable OMB criteria for compliance with IPIA, as described in table 1
(below).

                                   Table I: Improper Payment Requirements
                                                                                                                        Compliance
        Requirement                                                                                                     Requirement
                                                                                                                            Met
        Published the AFR and posted on agency Web site                                                                        Yes
        Conducted program-specific risk assessments                                                                            Yes
        Published improper payment estimates for all programs and activities identified as                              Not Applicable
        susceptible to significant improper payments in the AFR                                                            (N/A)a
        Published programmatic corrective action plans for all programs and activities
                                                                                                                               N/Aa
        susceptible to significant improper payments in the AFR
        Published and met annual reduction targets for each program assessed to be at risk and
        measured for all programs and activities susceptible to significant improper payments in                               N/Aa
        the AFR
        Reported a gross improper payment rate of less than 10 percent for each program or
        activity for which a significant improper payment estimate was obtained and published in                               N/Aa
        the AFR
        Reported information on its efforts to recapture improper payments in the AFR                                          Yes
      Source: OIG analysis of Departmental data
      a
        The Department determined that it does not have any programs or activities susceptible to the risk of significant improper payments
      [i.e., exceeding either (a) 1.5 percent of program payments and $10 million or (b) $100 million]; therefore, this requirement is not
      applicable.




4
    OMB Circular A-123, Appendix C, § II(A)(4).


FINAL REPORT NO. OIG-14-016-I                                                                                                                 2
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


    Improper Payment Elimination Practices Are Compliant with IPIA, But Further
    Improvement Is Needed

    To meet the requirements of IPIA and OMB Circular A-123, appendix C, the Department
    performed procedures in FY 2013 to detect and prevent improper payments, including
        	 Risk assessments of selected programs and activities.
        	 Evaluations of a sample of disbursements.5
        	 Engagement of a contractor to obtain the status of sustained disallowed costs for
           grants and other cooperative agreements and perform payment recapture audits of
             o	 closed and expired6 contracts and obligations of selected bureaus and
             o	 grants and other cooperative agreements for which the period of performance
                has expired.
        	 Routine monitoring procedures, such as post-payment reviews.
        	 Disclosure of required data in the FY 2013 AFR.
        	 Publication and Internet posting of the FY 2013 AFR.

    In March 2013, the Department also developed an internal control plan for funds spent
    under the Disaster Relief Appropriations Act, 2013, for Hurricane Sandy recovery and
    other disaster related activities, because the Act specifies that programs and activities
    receiving such funds are deemed susceptible to significant improper payments. OMB
    requires agencies to produce and report, to the extent possible, improper payment
    estimates in the FY 2014 reporting period. To comply, the Department will develop a
    sampling plan to examine these funds and report an improper payment estimate in its
    FY 2014 AFR.

    Each year, the Department evaluates a subset of its programs and activities based on a
    3-year rotational schedule for conducting risk assessments. During the FY 2013 risk
    assessment process, the Department did not identify any programs or activities susceptible
    to significant improper payments. The Department reported these results in its FY 2013
    AFR, along with information on its efforts to recapture improper payments. Based on these
    activities, we found that the Department met the applicable OMB criteria for compliance
    with IPIA.

    In addition, the Department reported that it did not identify any significant problems with
    improper payments. Its review of FY 2013 disbursements did not identify any improper

5
  The review, performed by the Office of Financial Management, included disbursements made between October 1,
2012, and June 30, 2013, which were equal to or greater than $5,000. Not included in the review for FY 2013
were grants and other cooperative agreements, travel payments, bank/purchase cards, procurement vehicles with
other federal agencies such as intragovernmental payments and collections, government bills of lading, loans, and
gifts and bequests.
6
  Closed contracts and obligations have completed the closeout process; expired refers to those for which the
period of performance has ended, and last payment was made, but the closeout process has not been completed.


FINAL REPORT NO. OIG-14-016-I                                                                                   3
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

      payments. The payment recapture audits found $57 thousand in improper overpayments.
      Through the Department’s routine monitoring efforts, it identified and reported
      approximately $9.2 million in overpayments and $5 million in recaptured improper
      payments in FY 2013.

      Further, we determined that the Department made improvements to its improper payment
      practices in FY 2013 as a result of our work. In our March 2013 report on improper
      payment practices and reporting, we found that payments lacking sufficient documentation
      were not identified as improper payments. The Department implemented corrective actions
      to ensure that unsupported costs identified in audits and reviews of its programs and
      activities are reported annually as improper payments.

      We believe that the Department can further enhance its improper payment practices.
      Bureaus are required to report improper payments data quarterly, including those identified
      through completed audits and reviews. For FY 2013, we found that the Department did not
      follow up with the bureaus to determine whether their quarterly improper payment data
      included any amounts related to the unresolved audits7 identified in prior years. As a result,
      we believe there is a risk that the Department should have reported additional improper
      payment amounts in FY 2013.

      Recommendation

      We recommend that the Deputy Chief Financial Officer and Director for Financial
      Management enhance the Department’s processes to ensure that bureaus specifically
      provide, in their quarterly improper payment reporting, the status of unresolved audits
      identified in prior years and whether any improper payments were identified and recaptured
      upon final resolution.




7
    These audits were unresolved due to appeals or ongoing negotiations.


FINAL REPORT NO. OIG-14-016-I                                                                       4
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
We reviewed the Department’s response, included in appendix B, and considered the
Department’s comments in preparing the final report. Overall, the Department was pleased that
our office found that the Department met the three applicable criteria for compliance with IPIA
and agreed to implement our recommendation to enhance its processes. We look forward to
reviewing the Department’s corrective action plan.




FINAL REPORT NO. OIG-14-016-I                                                                     5
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
Our objectives were to (1) assess whether the Department complied with all applicable
reporting requirements and (2) evaluate the accuracy and completeness of its reporting as well
as its performance in reducing and recapturing improper payments. The scope of our review of
the Department’s compliance with IPIA included Departmental processes and practices for
assessing and identifying programs and activities susceptible to improper payments, along with
procedures in place to detect and prevent improper payments, during FY 2013.

To meet our objectives, we obtained an understanding of internal controls and practices by

    	 Communicating with officials in the Department’s Office of Financial Management to
       gain an understanding of risk assessment, disbursement sampling, and improper payment
       recapture processes.

    	 Requesting, obtaining, and analyzing documents related to the FY 2013 risk assessment,
       disbursement sampling, and improper payment recapture processes—including relevant
       procedures, sampling results, and contractor and internal reports.

    	 Reviewing “Appendix C: Improper Payments Information Act (IPIA) of 2002, as 

       Amended, Reporting Details” in the AFR.


We also reviewed the Department’s compliance with applicable provisions of IPIA and OMB
Circular A-123, appendix C.

We conducted our field work from February 2014 to March 2014 in Washington, DC. We
performed this review under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated April 26, 2013. The review was conducted in
accordance with the Quality Standards for Inspection and Evaluation (January 2012) issued by the
Council of the Inspectors General on Integrity and Efficiency.




FINAL REPORT NO. OIG-14-016-I                                                                      6
U.S. DEPARTMENT OF COMMERCE                     OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response





                                011200000177



FINAL REPORT NO. OIG-14-016-I                                            7
